                Opportunities Exist to Transition Taxpayers
                 From Submitting Computer-Prepared Tax
                       Returns on Paper to E-Filing

                                    March 2004

                       Reference Number: 2004-40-076




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       March 31, 2004


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                      ENFORCEMENT
                      DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Opportunities Exist to Transition Taxpayers
                                     From Submitting Computer-Prepared Tax Returns on Paper to
                                     E-Filing (Audit # 200340044)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       efforts to reduce the volume of tax returns prepared using computer software packages
       but submitted to the IRS on paper1 instead of being electronically filed (e-filed).2
       The IRS is the largest processor of information in the world. For Tax Year (TY) 2001,
       63 percent of all individual tax returns it processed were filed on paper. However, it is
       the policy of the Congress that paperless filing (electronic filing) be the preferred and
       most convenient means of filing tax returns. The Congress included provisions in the
       IRS Restructuring and Reform Act of 1998 (RRA 98)3 to address paperless tax return
       filing and set goals for the IRS. For example, the RRA 98 requires the IRS to have at
       least 80 percent of all tax returns e-filed by the year 2007 and, to the extent practicable,
       ensure that all tax returns prepared electronically after 2001 are e-filed. The Congress
       also established a provision to promote and encourage the benefits and use of
       electronic tax administration programs, as they become available, through mass
       communications and other means. Since the passage of the RRA 98, the IRS’ e-file
       marketing budget has increased from $273,000 to approximately $22 million in 2002.

       1
         For the purposes of this report, we will refer to individual taxpayer tax returns prepared using a computer software
       tax package and submitted to the IRS on paper as “computer-prepared paper tax returns.”
       2
         E-file is a way to file a tax return electronically to the IRS using an authorized IRS e-file provider or personal
       computer.
       3
         Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
       16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                            2

Since the enactment of the RRA 98, the IRS has made a significant effort to make
e-filing easier and continues to identify opportunities and create incentives for taxpayers
to e-file. These efforts have resulted in taxpayers being able to electronically sign their
tax returns, e-file their state tax returns with their Federal tax returns, pay their taxes
using a credit card, e-file 99 percent of all tax forms, and e-file at no cost.4 Furthermore,
in an attempt to encourage paid preparers to submit tax returns electronically, the IRS
offers specific support services and is in the process of providing incentives exclusive to
e-file providers.5 These incentives will include the ability to apply to become an e-file
provider online, interact with the IRS by email, and obtain client transcripts online.
The IRS has made significant progress in attracting taxpayers to e-file. Taxpayers
participating in e-file have increased from 24.6 million for TY 1997 to 46.8 million for
TY 2001.6 However, the current rate of e-file growth is slowing and will not enable the
IRS to meet its e-file goal of 80 percent by 2007.7 Therefore, it is essential that the IRS
focus on taxpayers and paid preparers that have not e-filed, particularly those that
continue to file computer-prepared paper tax returns.
As the IRS strives to increase e-filing by transitioning individual taxpayers and preparers
from mailing their computer-prepared tax returns, the IRS needs to address the
following issues to help ensure its success:
•   The IRS does not currently identify all tax returns that are computer-prepared and
    submitted on paper.
•   The IRS does not currently have a process to measure the effectiveness of all
    aspects of its marketing and outreach activities.
•   The current marketing strategy does not include individuals that use computer
    software packages to self-prepare their tax returns and submit them on paper.
E-filing provides significant benefits to both taxpayers and the IRS. Over 46.7 million
taxpayers that submitted TY 2001 computer-prepared paper tax returns did not receive
the benefits associated with e-filing, including faster refunds, more accurately processed
tax returns, and quick acknowledgement that the IRS received their tax returns. In
addition, the IRS estimates the processing of an e-filed tax return compared to that of a
paper tax return results in cost savings of approximately $2.308 per tax return.
We recommended the Deputy Commissioner for Services and Enforcement ensure the
IRS (1) identifies all computer-prepared paper returns submitted on paper, (2) develops
a process to measure e-file outreach and marketing activities, and (3) develops a


4
  This no cost e-filing option is the result of the IRS entering into an agreement with tax preparation software
companies and is available for taxpayers that meet certain requirements.
5
  E-file providers may be electronic return originators, transmitters, software developers, tax practitioners, and states.
6
  TY 2001 data are the most complete information available from the IRS.
7
  Tax Administration: IRS’ 2003 Filing Season Performance Showed Improvements (GAO-04-84,
dated October 2003).
8
  Cost savings relate to the costs saved to process a tax return and do not include Information Technology and
Customer Service costs, as the IRS is still in the process of computing these costs.
                                                        3

marketing strategy to transition individual taxpayers that self-prepare
computer-prepared paper returns to e-filing.
Management’s Response: IRS management agreed with our recommendations and
has initiated corrective actions. Specifically, the IRS will require tax examiners to
v-code9 all computer-generated U.S. Individual Income Tax Return (Form 1040) series
paper tax returns, has developed an e-file Outreach Strategy and a standard
measurement system using several data sources to evaluate the results of marketing
efforts, and will include the specific targeting of v-coded return filers in marketing efforts.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.




9
 IRS employees identify and code computer-prepared paper tax returns with a “V.” This process is referred to as
v-coding.
                   Opportunities Exist to Transition Taxpayers From Submitting
                      Computer-Prepared Tax Returns on Paper to E-Filing




                                               Table of Contents


Background ............................................................................................... Page 1
Significant Effort Has Been Made to Increase
Participation in E-File................................................................................. Page 3
Computer-Prepared Paper Tax Returns Continue to Be
the Largest Opportunity for Meeting E-File Goals...................................... Page 5
         Recommendations 1 through 3: .................................................... Page 11

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 13
Appendix II – Major Contributors to This Report........................................ Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Outcome Measures ............................................................ Page 16
Appendix V – Management’s Response to the Draft Report ..................... Page 17
             Opportunities Exist to Transition Taxpayers From Submitting
                Computer-Prepared Tax Returns on Paper to E-Filing

                                The Internal Revenue Service (IRS) is the largest processor
Background
                                of information in the world. For Tax Year (TY) 2001,
                                approximately 80 million (63 percent) of the 126 million
                                individual tax returns that it processed were filed on paper.1
                                However, it is the policy of the Congress that paperless
                                filing (electronic filing, or e-filing) be the preferred and
                                most convenient means of filing tax returns. The Congress
                                included provisions in the IRS Restructuring and Reform
                                Act of 1998 (RRA 98)2 to address paperless tax return filing
                                and set goals for the IRS. For example, the RRA 98
                                requires the IRS to have at least 80 percent of all tax returns
                                e-filed by the year 2007 and, to the extent practicable,
                                ensure that all tax returns prepared electronically after 2001
                                are e-filed.
                                The Congress also established a provision to promote and
                                encourage the benefits and use of electronic tax
                                administration programs, as they become available, through
                                mass communications and other means. Since the passage
                                of the RRA 98, the IRS’ e-file marketing budget has
                                increased from $273,000 to approximately $22 million in
                                2002.
                                When filing their tax returns, individual taxpayers have the
                                option to either e-file or submit their tax returns on paper to
                                the IRS. E-filed tax returns and paper filed tax returns can
                                be prepared either by the taxpayer (self-prepared) or by
                                someone other than the taxpayer (paid preparer).
                                When taxpayers submit their tax returns on paper, the IRS
                                classifies the tax returns into two categories:
                                Hand-prepared tax returns – Tax returns that are
                                handwritten.




                                1
                                  TY 2001 data were the most complete information available from the
                                IRS at the time of our analysis.
                                2
                                  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                Page 1
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing

                   Computer-prepared paper tax returns3 – Tax returns
                   prepared using a computer software tax package but
                   submitted to the IRS on paper rather than being e-filed.
                   IRS employees identify and code computer-prepared paper
                   tax returns with a “V.” This process is referred to as
                   v-coding. Although the IRS uniquely codes the
                   computer-prepared paper tax returns, it processes them in
                   the same manner in which it processes hand-prepared tax
                   returns. The processing of paper tax returns requires IRS
                   employees to manually input tax return information into IRS
                   computers.
                   Chart 1 shows the percentage of e-file tax returns,
                   computer-prepared paper tax returns, and hand-prepared tax
                   returns for TY 2001.
                                                      Chart 1

                                       Individual Tax Returns Filed
                                             for Tax Year 2001


                                                 Computer
                                                  Prepared
                                                    37%
                                                                   Hand
                                             e-file             Prepared
                                              37%                  26%




                   Source: Treasury Inspector General for Tax Administration (TIGTA)
                   Data Center Warehouse.

                   This review was performed at the IRS National
                   Headquarters and the Office of Electronic Tax
                   Administration in Washington, D.C.; the Wage
                   and Investment (W&I) Division Headquarters in
                   Atlanta, Georgia; and the Small Business/
                   Self-Employed (SB/SE) Division Headquarters in


                   3
                     For the purposes of this report, we will refer to individual taxpayer tax
                   returns prepared using a computer software tax package and submitted
                   to the IRS on paper as “computer-prepared paper tax returns.”
                                                                                      Page 2
               Opportunities Exist to Transition Taxpayers From Submitting
                  Computer-Prepared Tax Returns on Paper to E-Filing

                                  New Carrollton, Maryland. We conducted our audit during
                                  the period February through November 2003.
                                  The audit was conducted in accordance with Government
                                  Auditing Standards. Detailed information on our audit
                                  objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  The IRS recognizes the need to promote the benefits of
Significant Effort Has Been
                                  e-file and encourages taxpayers and paid preparers to e-file.
Made to Increase Participation
                                  Since the enactment of the RRA 98, the IRS has made a
in E-File
                                  significant effort to make e-filing easier and continues to
                                  identify opportunities and create incentives for taxpayers to
                                  e-file. For example:
                                  •   Taxpayers can now sign their tax returns using an
                                      electronic signature. For TY 2001, 24.7 million
                                      taxpayers signed their electronically filed tax returns
                                      using a Personal Identification Number in lieu of a
                                      written signature.
                                  •   Taxpayers can e-file their Federal and state tax
                                      returns together. The IRS has formed a partnership
                                      with 37 states so taxpayers living in these states have
                                      this option. For TY 2001, 19.3 million taxpayers filed
                                      both their Federal and state tax returns with a single
                                      electronic transmission.
                                  •   Taxpayers can pay their taxes using a credit card. In
                                      TY 2002, over 768,000 payments were made
                                      electronically by credit card or electronic withdrawal
                                      from a checking or savings account.
                                  •   Taxpayers can now file 99 percent of all tax forms
                                      electronically.
                                  In addition, the IRS has identified that the cost associated
                                  with e-filing is the largest barrier to an individual taxpayer’s
                                  willingness to e-file. To address the cost issue, the IRS
                                  entered into an agreement with a number of tax preparation
                                  software companies to provide no-cost e-filing to individual
                                  taxpayers that meet certain requirements. For TY 2002,
                                  119 million of the estimated 127 million individual
                                  taxpayers met the requirements to e-file a tax return at
                                  no cost.
                                                                                           Page 3
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing

                   The IRS Advisory Council4 reports that paid preparers file
                   nearly 60 percent of all individual tax returns. In addition,
                   segments of the preparer community have adopted e-filing
                   as their principal way of doing business.5 However, the
                   Council reported that, while paid preparers produce
                   72 percent of all computer-prepared tax returns, only
                   46 percent of these paid preparers e-file. If all paid
                   preparers e-filed, it would put the IRS past its goal of having
                   80 percent of all tax returns e-filed by the year 2007.
                   In an attempt to encourage paid preparers to submit tax
                   returns electronically, the IRS plans to provide incentives
                   exclusive to e-file providers (preparers that e-file tax
                   returns). For those preparers that are e-file providers, the
                   IRS offers specific support services including:
                   •   Quick Alerts – a messaging system that disseminates
                       (within seconds, by email or telephone) information
                       regarding the e-file Program.
                   •   An e-file Toll-Free Assistance Helpdesk that addresses
                       e-file questions and concerns.
                   •   An e-file web page on the IRS Internet.
                   •   On-line business tools, including an online application
                       for a preparer tax identification number and the ability to
                       verify the accuracy of taxpayer identification numbers.
                   In addition, the IRS is in the process of releasing a series of
                   “E-Services” for third parties6 that participate in the e-file
                   Program. E-Services will provide the ability to apply to
                   become an authorized e-file provider online, electronically
                   receive account transcripts for clients, and communicate by
                   email with the IRS.
                   The IRS’ e-file improvements, promotions, and incentives
                   have resulted in the steady growth of the e-file Program.
                   Chart 2 shows the increase of e-filed tax returns.

                   4
                     The IRS Advisory Council provides an organized public forum for
                   IRS officials and representatives of the public to discuss relevant tax
                   administration issues, including e-filing.
                   5
                     IRS Advisory Council Small Business & Self-Employed Subgroup
                   Report, dated November 6, 2003.
                   6
                     Third parties may be electronic return originators, transmitters,
                   software developers, tax practitioners, payers, and states.
                                                                                      Page 4
                Opportunities Exist to Transition Taxpayers From Submitting
                   Computer-Prepared Tax Returns on Paper to E-Filing

                                                                   Chart 27
                                   24.                     E-file Volume of Tax Returns

                                                                                                    46.8 M
                                       50,000,000                                        40.2 M
                                                                              35.4 M
                                       40,000,000                 29.3 M
                                                       24.6 M
                                       30,000,000

                                       20,000,000

                                       10,000,000

                                               0
                                                    1997        1998       1999        2000       2001


                                   Source: IRS Electronic Tax Administration.

                                   As shown in Chart 2, the IRS has made significant progress
Computer-Prepared Paper Tax
                                   in attracting taxpayers to e-file. The General Accounting
Returns Continue to Be the
                                   Office (GAO)8 recently reported that the current rate of
Largest Opportunity for Meeting
                                   growth of e-filing is slowing and will not allow the IRS to
E-File Goals
                                   achieve its long-term e-file goal of 80 percent by 2007,
                                   despite a number of initiatives implemented over the years
                                   to reduce barriers and encourage more e-filing.
                                   Provisions included in the RRA 98 directed the IRS, to the
                                   extent practicable, to ensure that all tax returns prepared
                                   electronically after 2001 are e-filed. Therefore, it is
                                   essential that the IRS focus its efforts on those taxpayers
                                   and paid preparers that have not e-filed, particularly those
                                   that continue to file computer-prepared paper tax returns.
                                   The IRS recognizes taxpayers and paid preparers that file
                                   computer-prepared paper tax returns provide an opportunity
                                   for furthering its e-file goals and plans to aggressively
                                   address this issue. Chart 3 shows that, although the number
                                   of computer-prepared paper tax returns is decreasing,
                                   46.7 million were filed for TY 2001.




                                   7
                                     These data were provided by the IRS. We did not validate the
                                   accuracy and reliability of these data.
                                   8
                                     Tax Administration: IRS’ 2003 Filing Season Performance Showed
                                   Improvements (GAO-04-84, dated October 2003).
                                                                                                         Page 5
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing

                                                       Chart 39

                                    Computer-Prepared Paper Tax Returns

                                                  51.4 M          51.6 M
                       52,000,000
                                                                           49.1 M
                       50,000,000
                                                                                       46.7 M
                       48,000,000

                       46,000,000      43.6 M
                       44,000,000

                       42,000,000
                       40,000,000
                                    1997        1998       1999        2000         2001


                   Sources: Electronic Tax Administration for TYs 1997 to 2000; TIGTA
                   Data Center Warehouse for TY 2001.

                   As the IRS strives to increase e-filing by transitioning
                   individual taxpayers and paid preparers from submitting
                   computer-prepared paper tax returns to e-filing, the
                   following issues need to be addressed to help ensure
                   success.
                   The IRS does not currently identify all tax returns that
                   are computer-prepared and submitted on paper
                   Currently, the IRS identifies computer-prepared paper tax
                   returns submitted using U.S. Individual Income Tax Return
                   (Form 1040) and U.S. Individual Income Tax Return
                   (Form 1040A). Guidelines require that IRS employees
                   processing paper tax returns identify and v-code only
                   computer-prepared Forms 1040 and 1040A tax returns. The
                   IRS identifies those tax returns so it can suppress future
                   mailings of IRS tax packages. The IRS decided that, if
                   individuals purchase IRS-approved tax preparation software
                   packages to prepare their tax returns, sending the tax
                   packages would not be cost-effective for the IRS or
                   necessary for the taxpayers to prepare and file their tax
                   returns in the future.
                   IRS guidelines do not include the requirement to identify
                   and v-code computer-prepared paper tax returns filed using


                   9
                    We did not validate the accuracy of the data for TYs 1997 through
                   2000.
                                                                                           Page 6
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing

                   Income Tax Return for Single and Joint Filers With No
                   Dependents (Form 1040EZ). However, IRS employees are
                   not consistently following the guidelines. For example, our
                   review of TY 2001 data files identified approximately
                   217,000 Form 1040EZ tax returns that had been v-coded,
                   even though IRS employees are not required to v-code these
                   tax returns.
                   Currently there are 66 IRS-approved electronic tax
                   preparation software packages that taxpayers and paid
                   preparers can use to prepare a Form 1040EZ tax return,
                   which may then be submitted to the IRS as a
                   computer-prepared paper tax return. During TY 2001, a
                   total of 10.7 million Form 1040EZ tax returns were
                   submitted on paper to the IRS. Because the IRS does not
                   require the Form 1040EZ to be v-coded, there is no way to
                   identify the volume that are computer-prepared paper tax
                   returns.
                   Although the IRS’ original intent of identifying and
                   v-coding tax returns was to reduce mailing and postage
                   costs, the IRS is now using the information to develop and
                   target its marketing and outreach strategies in an effort to
                   reduce this population. Therefore, it is essential that all
                   Form 1040 series tax returns be identified. Inconsistent
                   identification may result in underestimating the volume of
                   individual taxpayers that file computer-prepared tax returns
                   and may eliminate some taxpayers from being included in
                   the IRS’ marketing and outreach efforts.
                   The IRS does not currently have a process to measure
                   the effectiveness of all aspects of its marketing and
                   outreach activities
                   The IRS is currently in the process of finalizing plans for its
                   Fiscal Year (FY) 2004 marketing and outreach strategy,
                   which will focus on paid preparers that submit
                   computer-prepared tax returns. For TY 2001, paid preparers
                   filed 33.9 million (73 percent) of the 46.7 million
                   computer-prepared paper tax returns. Although plans are
                   being developed, the IRS has not developed a process to
                   timely and consistently measure the effectiveness of its
                   marketing and outreach activities.


                                                                           Page 7
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing

                   For FY 2004, the IRS plans to undertake aggressive
                   marketing and outreach campaigns coordinated by its
                   W&I Division Office of Stakeholder Partnerships,
                   Education, and Communication (SPEC) and
                   SB/SE Division Office of Taxpayer Education and
                   Communication (TEC). These offices educate and inform
                   taxpayers and paid preparers about their tax obligations by
                   developing educational products and services focused on
                   customer needs and by providing top-quality pre-filing
                   services to help taxpayers understand and comply with the
                   tax laws.
                   The SPEC and TEC offices have developed a joint strategy
                   that outlines the steps that will be taken to identify each
                   organization’s targeted audience. The goal is to ensure the
                   organizations do not duplicate efforts (each organization
                   visiting the same preparer). The targeted audience for each
                   organization is as follows:
                   •   The SPEC office will focus its outreach and marketing
                       efforts on paid preparers that file primarily individual
                       tax returns. These preparers are usually authorized e-file
                       providers. The goal of the SPEC office’s outreach and
                       marketing is to increase the number of tax returns these
                       preparers e-file. The SPEC office plans include field
                       visits, telephone contacts, seminars, and mailings.
                   •   The TEC office will focus its outreach and marketing
                       efforts on paid preparers that file primarily business tax
                       returns and are not always authorized e-file providers.
                       The goal of TEC office’s outreach and marketing is to
                       get these preparers to become authorized e-file
                       providers. The TEC office plans include field visits and
                       seminars.
                   Although both offices are committed to a joint strategy, they
                   have yet to implement a process to consistently capture the
                   results of each office’s outreach efforts. In addition, despite
                   having outreach efforts since FY 2002, the SPEC office has
                   yet to develop a standard measurement process to measure
                   the effectiveness of its outreach efforts. The SPEC office
                   has progressed in its efforts to develop a standard
                   measurement process. It is analyzing and evaluating its
                   previous measurement efforts to identify those steps to be
                   included in a standard measurement process. The SPEC
                                                                           Page 8
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing

                   office met with its Research function in December 2003 to
                   discuss how to design such a measurement process.
                   The TEC office has coordinated with its Research function
                   since the inception of its outreach efforts to develop a
                   process to measure the effectiveness of its outreach and
                   marketing activities. However, because of delays in getting
                   the necessary data to perform this measurement, it is still
                   attempting to measure the effectiveness of its outreach
                   efforts performed in FYs 2002 and 2003.
                   Each office will have to address its inability to timely
                   measure the effectiveness of its efforts resulting primarily
                   from delays in obtaining the necessary data needed for this
                   measurement analysis. For example, the FY 2004 strategy
                   calls for the SPEC and TEC offices to conduct their
                   outreach efforts between June and December 2004.
                   However, delays in obtaining the necessary data timely will
                   result in the inability to completely measure the
                   effectiveness of the outreach efforts until February 2006
                   (approximately 20 months after the marketing strategy is
                   initiated).
                   Without a timely and consistent method to measure its e-file
                   outreach and marketing efforts, the IRS may not have the
                   ability to effectively adjust its strategy or make informed
                   business decisions on the impact that one or more of its
                   marketing and outreach efforts may be having on
                   transitioning taxpayers from computer-prepared paper tax
                   returns to e-file.
                   The current marketing strategy does not include
                   individuals that use computer software packages to
                   self-prepare their tax returns and submit them on paper
                   The FY 2004 marketing and outreach strategy planned by
                   the SPEC and TEC offices primarily targets
                   computer-prepared paper tax returns submitted by paid
                   preparers. However, of the 46.7 million computer-prepared
                   paper tax returns submitted for TY 2001, a total of
                   12.8 million (27 percent) were self-prepared (taxpayers used
                   computer software packages to prepare their own tax returns
                   and submit them on paper to the IRS). The IRS has the
                   ability to identify these taxpayers, but the SPEC and TEC


                                                                         Page 9
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing

                   offices do not have plans to aggressively market to these
                   taxpayers.
                   Without an aggressive marketing strategy by the IRS,
                   individuals that self-prepare might not understand the
                   numerous benefits of e-file and might continue to mail their
                   computer-prepared paper tax returns. These taxpayers
                   present further opportunities for the IRS to increase e-file.
                   After we discussed our results with IRS management, they
                   agreed taxpayers that self-prepare computer-prepared paper
                   tax returns should be included in marketing and outreach
                   efforts. Specifically, management agreed to evaluate the
                   possibility of direct mailing to these individuals, especially
                   to inform them of the IRS’ partnership with the electronic
                   tax preparation software industry that could result in e-filing
                   at no cost. Management indicated that they plan to
                   implement the direct mail recommendation in their 2004
                   marketing strategy.
                   The effect of transitioning individual taxpayers from
                   computer-prepared paper tax returns to e-file
                   E-filing provides significant benefits to both taxpayers and
                   the IRS. For example:
                   •    The approximately 46.7 million taxpayers that use
                        computer software packages to prepare tax returns yet
                        submit them on paper are not receiving the benefits
                        associated with e-file, including faster refunds, more
                        accurately processed tax returns,10 and quick
                        acknowledgement that the IRS received the tax returns.
                   •    The IRS estimates the processing of an e-filed tax return
                        compared to that of a paper tax return results in
                        processing cost savings of approximately $2.3011 per tax
                        return. If the approximately 46.7 million taxpayers that
                        submit computer-prepared paper tax returns elected to
                        e-file these tax returns, the potential processing cost


                   10
                      Errors are made on 5 percent of tax returns when IRS employees
                   manually input information from the tax return to the IRS’ computer
                   system.
                   11
                      Cost savings relate to the costs saved to process a tax return and do
                   not include Information Technology and Customer Service costs, as the
                   IRS is still in the process of computing these costs.
                                                                                  Page 10
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing

                        savings would have exceeded $107 million for TY 2001
                        and could be $537 million over 5 years. (See
                        Appendix IV for more details.)
                   Recommendations
                   The Deputy Commissioner for Services and Enforcement
                   should ensure the IRS:
                   1. Accurately and consistently identifies all tax returns that
                      are computer-prepared and submitted on paper.
                   Management’s Response: The IRS will revise Internal
                   Revenue Manual 3.11.3, Returns and Document Analysis,
                   for the 2005 Filing Season12 to instruct tax examiners to
                   v-code all computer-generated Form 1040 series paper tax
                   returns. This revision will be effective in January 2005.
                   2. Develops a standard measurement process to
                      consistently and timely measure e-file outreach and
                      marketing activities.
                   Management’s Response: For FYs 2004 and beyond, the
                   W&I Division SPEC and SB/SE Division TEC offices have
                   segmented the preparer database primarily along individual
                   and business filing components. Each organization
                   developed complementary marketing strategies that target
                   their respective preparer segments. For FY 2004, the SPEC
                   office developed an e-file Outreach Strategy and a standard
                   measurement system. In addition, the SPEC and TEC
                   offices will use several data sources to evaluate results of
                   marketing efforts. The SPEC and TEC offices will continue
                   to work with the W&I and SB/SE Divisions’ Research
                   functions to determine the feasibility of combining research
                   projects and standardizing the measurement process.
                   3. Develops a direct marketing strategy focusing on
                      transitioning individual taxpayers that self-prepare
                      computer-prepared paper tax returns to e-filing.
                   Management’s Response: The IRS will include the specific
                   targeting of v-coded return filers through the Statement of
                   Work and contract with its vendor as part of the overall


                   12
                     The period from January through mid-April when most individual
                   income tax returns are filed.
                                                                              Page 11
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing

                   FY 2005 advertising effort. The IRS will send Isn’t it time
                   you e-filed? (Publication 8160E) to targeted individuals. It
                   will also survey selected recipients on the perceived
                   effectiveness of this Publication and monitor the actual
                   e-file rate of individual recipients as opposed to other
                   individuals who did not receive the Publication.




                                                                        Page 12
               Opportunities Exist to Transition Taxpayers From Submitting
                  Computer-Prepared Tax Returns on Paper to E-Filing

                                                                                     Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Internal Revenue Service’s (IRS) efforts to
reduce the volume of tax returns prepared using computer software packages but submitted to the
IRS on paper instead of being electronically filed (e-filed). To accomplish this objective, we:
I. Determined what efforts the IRS has taken to identify the volume and characteristics of
   taxpayers that prepare their tax returns using computer software but submit the tax returns to
   the IRS on paper (referred to as computer-prepared paper tax returns).
   A. Determined if the IRS accurately identifies all computer-prepared paper tax returns.
   B. Obtained and reviewed IRS statistics on computer-prepared paper tax returns.
   C. Performed a walk-through of the Code and Edit function to determine how the IRS codes
      computer-prepared paper tax returns.
   D. Obtained an extract from the Treasury Inspector General for Tax Administration Data
      Center Warehouse to determine whether volumes of computer-prepared paper tax returns
      are consistently coded and identify limitations to the IRS’ ability to identify
      computer-prepared paper tax returns.
   E. Determined if the IRS accurately or completely captured computer-prepared paper tax
      returns.
   F. Determined the impact to both the taxpayer and the IRS.
II. Determined what IRS strategies and efforts have been taken to reduce the volume of
    computer-prepared paper tax returns.
   A. Determined if the IRS has a documented strategic plan outlining initiatives to be taken to
      reduce computer-prepared paper tax returns.
   B. Discussed strategies planned or completed with appropriate IRS management.
   C. Determined whether the IRS used information provided by research projects to design
      initiatives to reduce the volume of computer-prepared paper tax returns.
   D. Determined whether the IRS has undertaken sufficient efforts to reduce
      the volume of computer-prepared paper tax returns.
   E. Computed the impact on both the taxpayer and the IRS relating to taxpayer burden and
      IRS cost savings.




                                                                                          Page 13
              Opportunities Exist to Transition Taxpayers From Submitting
                 Computer-Prepared Tax Returns on Paper to E-Filing

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Randee Cook, Director
Russell Martin, Audit Manager
Lena Dietles, Senior Auditor
Robert Baker, Auditor
Mary Keyes, Auditor
Joseph Butler, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist
Jeffrey Williams, Information Technology Specialist




                                                                                         Page 14
             Opportunities Exist to Transition Taxpayers From Submitting
                Computer-Prepared Tax Returns on Paper to E-Filing

                                                                             Appendix III


                                    Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Chief Communications and Liaison CL
Deputy Chief, Information Technology Services OS:CIO:I
Director, Communications, Wage and Investment Division SE:W:C
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Taxpayer Education and Communication, Small Business/Self-Employed Division
SE:S:T
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Electronic Tax Administration, Information Technology Services OS:CIO:I:ET
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison:
       Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
       GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                    Page 15
                  Opportunities Exist to Transition Taxpayers From Submitting
                     Computer-Prepared Tax Returns on Paper to E-Filing

                                                                                                   Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •    Taxpayer Burden – Potential; 46.7 million taxpayers that filed computer-prepared paper
         tax returns for Tax Year (TY) 2001 did not receive the benefits of electronic filing
         (e-filing) for TY 20011 (see page 5).
Methodology Used to Measure the Reported Benefit:
The Internal Revenue Service (IRS) provided us the volume of v-coded2 tax returns for
TYs 1997 through 2000. Through the Treasury Inspector General for Tax Administration
Data Center Warehouse, we retrieved the volume of tax returns filed for TY 2001.
Type and Value of Outcome Measure:
    •    Inefficient Use of Resources – Potential; $537 million for 46.7 million
         computer-prepared paper tax returns, projected for each of 5 years (see page 5).
Methodology Used to Measure the Reported Benefit:
The IRS provided the cost of $2.86 to process a paper tax return and $.56 to process an
e-filed tax return. We calculated the difference in cost ($2.86 - $.56 = $2.30).3 We multiplied
the 46.7 million tax returns by the difference in cost to get the total cost savings
(46.7 million multiplied by $2.30 = $107.4 million multiplied by 5 years).




1
  TY 2001 data are the most complete information available from the IRS.
2
  When the IRS processes computer-prepared paper tax returns, IRS employees identify and code them to
distinguish them from the hand-prepared tax returns. This is referred to as v-coding.
3
  Cost savings relate to the costs saved to process a tax return and do not include Information Technology and
Customer Service costs, as the IRS is still in the process of computing these costs.
                                                                                                            Page 16
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing

                                                              Appendix V


      Management’s Response to the Draft Report




                                                                  Page 17
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing




                                                              Page 18
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing




                                                              Page 19
Opportunities Exist to Transition Taxpayers From Submitting
   Computer-Prepared Tax Returns on Paper to E-Filing




                                                              Page 20
